                                                         UNITED STATES

                                       SECURITIES AND EXCHANGE COMMISSION 

                                                   WASHINGTON ,     D .C . 20549 



                                                         January 27,20 14
    O F F ICE OF
INSPECT OR G E N E RA L




             Sylvia M. Burwell
             Director
             Office of Management and Budget
             c/o Mike Wetklow
             725 17111 Street, NW
             Washington, D.C. 20503

             Dear Ms. Burwell :

                     This letter is being in sent in accordance w ith the Government Charge Card Abuse
             Prevention Act of20 12 (Public Law 112-194), which requires th at Inspectors General (lGs)
             report to the Director of the Office of Management and Budget (OMB) on the impl ementation
             of recommendations made to the head of the executive agency to address findings of any
             analysis or audit of purchase card and convenience check transactions or programs.
             Furthermore, OMB Memorandum M-13 -21 , " Implementation of the Government Charge
             Card Abuse Prevention Act of 20 12," states that IGs shall report to the Director of OMB 120
             days after the end of each fiscal year on agency progress in implementi ng such audit
             recommendations, beginning with the fiscal year 20 13 submiss ion due by January 31 , 20 14.

                    Please be advised that the audit report most recently issued by the Securities and
             Exchange Commission ' s (SEC ' s) Office of Inspector General concerning the SEC's purchase
             card program, " Internal Contro l Review of the Government Purchase Card Program," Report
             No. 440, dated September 18, 2008, contained 17 recommendations, a ll of which were closed.
             We are in the process of performing an audit of purchase card operations and practices at the
             SEC and expect to issue our report by March 31 , 2014.




                                                          &~!kCarl W. Hoecker
                                                              Inspector General


             Attachments

             cc:          Mary Jo White, C hair 

                          Erica Y. Williams, Deputy Chief of Staff, Office of the C hair 

                          Luis A. Aguilar, Commissioner 

                          Daniel M. Gallagher, Commissioner 

MichaelS. Piwowar, Commissioner
Kara M. Stein, Commissioner
Anne K. Small, General Counsel, Office of the General Counsel
Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
Vance Cathell, Director, Office of Acquisitions
Dan Keenaghan, Office of Management and Budget




                                      2

